No. _______

In The

Supreme Court of the United States
CYNTHIA SORIA, Individually and as Parent
and Natural Guardian of G.S.,
GIOVANNI SORIA, Individually and as Parent
and Natural Guardian of G.S.,
v.

Petitioners,

NEW YORK CITY DEPARTMENT OF EDUCATION,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
Second Circuit

APPENDIX

Karl J. Ashanti, Esq.
Counsel of Record
Rory J. Bellantoni, Esq.
BRAIN INJURY RIGHTS GROUP, LTD.
300 East 95th Street, Suite 130
New York, New York 10128
(646) 850-5035
karl@pabilaw.org
Counsel for Petitioners
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (800) 847-0477

i
TABLE OF CONTENTS
Summary Order of the United States Court
of Appeals for the Second Circuit in No. 192540, Soria, et al. v. NYC Dept. of Education,
filed 10/28/20 ............................................................ A1
Order of the United States District Court for
the Southern District of New York in 19 Civ.
2149 (AT), Soria, et al. v. NYC Dept. of
Education, filed 10/29/20 ......................................... A7
Order of the United States District Court for
the Southern District of New York in 19 Civ.
2149 (AT), Soria, et al. v. NYC Dept. of
Education, filed 8/7/19 ............................................. A8
Opinion of the United States Court of
Appeals for the Second Circuit in 19-1662,
De Paulino v. NYC Dept. of Education, et al.
and 19-1813, Carrillo, et al. v. NYC Dept. of
Education, filed 5/18/20 ......................................... A24
Summary Order of the United States Court
of Appeals for the Second Circuit in No. 194068, Neske, et al. v. NYC Dept. of
Education, filed 10/2/20 ......................................... A59

A1
UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT
SUMMARY ORDER
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 28th day of
October, two thousand twenty.
PRESENT: REENA RAGGI, RICHARD J.
SULLIVAN, WILLIAM J. NARDINI, Circuit Judges.
_______________________
No. 19-2540
CYNTHIA SORIA, Individually and as Parent and
Natural Guardian of G.S., GIOVANNI SORIA,
Individually and as Parent and Natural Guardian of
G.S.,
Plaintiffs-Appellees,
v.
NEW YORK CITY DEPARTMENT OF
EDUCATION,
Defendant-Appellant.
For Plaintiffs-Appellees: PETER G. ALBERT, Brain
Injury Rights Group, New York, NY.
For Defendant-Appellant: ERIC LEE (Richard
Dearing, Scott Shorr, on the brief), for James E.
Johnson, Corporation Counsel of the City of New
York, New York, NY.

A2
Appeal from the United States District Court for
the Southern District of New York (Analisa Torres,
Judge).
UPON DUE CONSIDERATION, IT IS
HEREBY ORDERED, ADJUDGED, AND
DECREED that the order of the district court is
VACATED, and the case is REMANDED with
instructions to dismiss the complaint for failure to
state a claim upon which relief can be granted.
Defendant-Appellant New York City Department of
Education (the “City”) appeals from an order
granting the motion of Plaintiffs-Appellees Cynthia
and Giovanni Soria for a preliminary injunction. We
assume the parties’ familiarity with the underlying
facts, procedural history of the case, and the issues
on appeal.
The Sorias are the parents of G.S., a child with a
disability. During the 2017–2018 school year, when
G.S. was a student at the International Academy of
Hope (“iHOPE”), the Sorias initiated an
administrative proceeding alleging that the City
failed to offer G.S. a free appropriate public
education (“FAPE”) for that school year, as required
by the Individuals with Disabilities Education Act
(“IDEA”). In June 2018, an impartial hearing officer
agreed that the City had not offered G.S. a FAPE,
found that iHOPE was an appropriate placement for
G.S., and ordered the City to reimburse the Sorias in
full for G.S.’s tuition at iHOPE for the 2017–2018
school year. The City did not appeal this decision.
Without the City’s consent, the Sorias then
unilaterally transferred G.S. to another private
school called the International Institute for the
Brain (“iBRAIN”) for the 2018–2019 school year.
Shortly thereafter, the Sorias initiated a second

A3
administrative proceeding alleging that G.S.’s
individualized educational program (“IEP”) for the
2018–2019 school year failed to offer G.S. a FAPE.
This time, however, in addition to seeking tuition
reimbursement, the Sorias sought upfront public
funding for G.S.’s tuition at iBRAIN during the
pendency of their IEP challenge, pursuant to the
IDEA’s “stay-put” provision, 20 U.S.C. § 1415(j).
After an impartial hearing officer denied the Sorias’
request for pendency funding and a state review
officer affirmed that denial, the Sorias filed a
complaint against the City in the district court,
seeking an order vacating the review officer’s
decision and directing the City to fund G.S.’s tuition
at iBRAIN until final adjudication of the Sorias’ IEP
challenge.1
We have now twice confronted an identical set of
material facts and legal issues: first in Ventura de
Paulino v. New York City Department of Education,
959 F.3d 519 (2d Cir. 2020), and more recently in
Neske v. New York City Department of Education,
On the eve of oral argument, the City submitted a letter
informing the Court that in September 2019, pursuant to the
district court’s preliminary injunction order, the City paid
iBRAIN and other providers for services rendered to G.S. in the
2018–2019 school year. See ECF Doc. No. 103 at 1–2. Shortly
thereafter, the Sorias evidently moved to Long Island and
enrolled G.S. in a new school there. See id. at 2. Although it is
not clear why it took the City until the day before oral
argument to learn these pertinent facts – most of which
occurred over a year ago and long before the parties had
submitted their briefs – we ultimately agree with the City that
these facts, without more, do not necessarily render this appeal
moot. Indeed, counsel for the Sorias agrees with the City that
this appeal is not moot because the Sorias could attempt to rely
on the district court’s order to establish G.S.’s pendency status
in future proceedings. See ECF Doc. No. 107 at 3.

1

A4
No. 19-4068-cv, 2020 WL 5868279 (2d Cir. Oct. 2,
2020). In fact, all three cases arise from the same
exodus of students from iHOPE to iBRAIN, and all
of the plaintiffs are represented by the Brain Injury
Rights Group (“BIRG”), whose founder Patrick
Donohue also founded iBRAIN after leaving iHOPE.
See generally Ventura de Paulino, 959 F. 3d at 528–
29, 528 n.29.
In Ventura de Paulino, we held (and in Neske,
we reiterated) that “[a] parent cannot unilaterally
transfer his or her child and subsequently initiate an
IEP dispute to argue that the new school’s services
must be funded on a pendency basis.” Id. at 536; see
also Neske, 2020 WL 5868279, at *1. That conclusion
decisively resolves this appeal. We invited the
parties to submit supplemental briefing to address
the applicability of Ventura de Paulino (and Neske)
to this appeal because, although the Sorias filed
their brief after we issued our decision in Ventura de
Paulino, they did not address the merits of that
decision. See Sorias’ Br., ECF Doc. No. 70, at 34–36.
In their supplemental briefing, the Sorias do not
present any arguments that were not already
addressed by either Ventura de Paulino or Neske.
First, the Sorias contend that this case is
distinguishable from Ventura de Paulino because the
City “never offered [G.S.] any pendency placement.”
Sorias’ Supp. Br., ECF Doc. No. 95, at 3. But the
same was true in Ventura de Paulino. Repeating
what we made clear in Neske, “[i]n both Ventura de
Paulino and this case, iHOPE became the students’
pendency placement not at the City’s instigation, but
rather by operation of law after the City chose not to
appeal the rulings of the impartial hearing officers
holding that iHOPE was an appropriate placement

A5
for these students.” Neske, 2020 WL 5868279, at *1
(citing Ventura de Paulino, 959 F.3d at 532). Thus,
“[j]ust as we deemed the City to have implicitly
chosen iHOPE as the pendency placement for the
students in Ventura de Paulino, the same applies
here.” Id.
Second, like the appellants in Neske, the Sorias
argue that this case falls under footnote 65 of
Ventura de Paulino, in which we reserved decision as
to a situation “where the school providing the child’s
pendency services is no longer available and the
school district either refuses or fails to provide
pendency services to the child.” Ventura de Paulino,
959 F.3d at 534 n.65; see Sorias’ Supp. Br. at 4. But
again, “that situation is no more present here than it
was in Ventura de Paulino” because “iHOPE
continued to be available to [G.S.] and the City did
not refuse or fail to provide pendency services at
iHOPE; rather the plaintiffs unilaterally moved
[G.S.] from [G.S.’s] pendency placement to a new
private school.” Neske, 2020 WL 5868279, at *2.
Moreover, like the appellants in Neske, the Sorias
never alleged in their complaint that iHOPE was
effectively “unavailable” because it had changed so
drastically, see id. at *2 n.2, and we decline to
consider that argument for the first time on appeal,
see Mellon Bank, N.A. v. United Bank Corp. of N.Y.,
31 F.3d 113, 116 (2d Cir. 1994) (declining to review
an argument not raised before the district court
when the party “clearly had the opportunity to raise”
it below).2
BIRG submitted a letter to the Court after oral argument –
purportedly “in response” to the letter filed by the City –
arguing for the first time that iHOPE was “financially
unavailable” to the Sorias due to “substantial changes to the

2

A6
After Neske squarely and definitively rejected
these attempts to distinguish Ventura de Paulino,
we hoped (perhaps naively) that BIRG would not
repeat them here. Simply put, this case is materially
identical to Ventura de Paulino, and we reaffirm
that binding precedent here.
***
Accordingly, we VACATE the district court’s
August 7, 2019 order and REMAND the case with
instructions to dismiss the complaint for failure to
state a claim upon which relief can be granted.
FOR THE COURT:
/s/ Catherine O’Hagan Wolfe, Clerk of Court

iHOPE administration.” See ECF Doc. No. 107 at 1–2. BIRG
does not cite anything in the record to support these new
contentions, and we refuse to consider them for the first time
now. See Mellon Bank, 31 F.3d at 116.

A7
DATE FILED: 10/29/20
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
19 Civ. 2149 (AT)
CYNTHIA SORIA and GIOVANNI SORIA, as
Parents and Natural Guardians of G.S., and
CYNTHIA SORIA and GIOVANNI SORIA,
Individually,
Plaintiffs,
-againstNEW YORK CITY DEPARTMENT OF
EDUCATION,
Defendant.
ORDER
ANALISA TORRES, District Judge:
Pursuant to the mandate of the United States
Court of Appeals for the Second Circuit, ECF No. 50,
this action is DISMISSED. Any pending motions are
moot.
The Clerk of Court is directed to close the case.
SO ORDERED.
Dated: October 29, 2020
New York, New York
/s/ ANALISA TORRES, United States District Judge

A8
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
19 Civ. 2149 (AT)
CYNTHIA SORIA and GIOVANNI SORIA, as
Parents and Natural Guardians of G.S., and
CYNTHIA SORIA and GIOVANNI SORIA,
Individually,
Plaintiffs,
-againstNEW YORK CITY DEPARTMENT OF
EDUCATION,
Defendant.
________________________
ORDER
ANALISA TORRES, District Judge:
Plaintiffs, Cynthia and Giovanni Soria, are the
parents of G.S., a seven-year-old boy who suffers
from a brain injury. Compl. ¶¶ 6-7, ECF No. 1.
Plaintiffs move for a preliminary injunction (1)
vacating a New York state administrative officer's
decision denying the parents' request for an interim
order for tuition reimbursement from Defendant, the
New York City Department of Education (the
“DOE”), for their son's non-public school placement
at the International Institute for the Brain
(“iBrain”), and (2) ordering the DOE to fund G.S. 's
placement at iBrain for the 2018- 2019 school year
until final adjudication of Plaintiffs' underlying

A9
administrative proceedings. Pl. Mot., ECF No. 13.
For the reasons stated below, Plaintiffs ' motion
is GRANTED.
BACKGROUND
I. Framework of the Individuals with Disabilities
Education Act
Pursuant to the Individuals with Disabilities
Education Act (the “IDEA”), a student with a
disability is entitled to a “free appropriate public
education” (“FAPE”). 20 U.S. C. § 1400(d)(1)(A).
An “individualized education program” or “IEP” for
each child's FAPE is developed by her parents, at
least one teacher, and a representative of the local
educational agency. Id. § 1414(d)(1)(A)(i); id. §
1414(d)(1)(B).
However, a parent who believes that her child is
not being provided with a FAPE may place her child
in a private school, see Sch. Comm. of Town of
Burlington, Mass. v. Dep’t of Educ. of Mass., 471
U.S. 359, 369–70 (1985), and “seek tuition
reimbursement from the school district by filing
what is known as a due process complaint,”
triggering “an administrative procedure by which
the board of education appoints an Independent
Hearing Officer (‘IHO’) who conducts a formal
hearing and fact-finding,” M.O. v. N.Y. City Dep’t of
Educ., 793 F.3d 236, 239 (2d Cir. 2015) (internal
quotation marks and citations omitted); 20 U.S.C. §§
1412(a)(10)(C)(ii), 1415(b)(6); N.Y. Educ. Law §
4404(1). The IHO then renders a written decision on
the parent’s due process complaint by determining
whether “(1) the proposed IEP failed to provide the

A10
student with an appropriate public education; (2) the
parent’s private placement was appropriate to the
child’s needs; and (3) equitable considerations
support the parent’s claim.” Reyes ex rel. R.P. v. N.Y.
City Dep’t of Educ., 760 F.3d 211, 215 (2d Cir. 2014).
The IHO’s decision is binding upon both parties
unless appealed to a State Review Officer (“SRO”).
20 U.S.C. § 1415(g); N.Y. Educ. Law § 4404(1), (2).
An SRO’s decision may be challenged by filing a civil
action in a federal district court. 20 U.S.C. §
1415(i)(2)(A). That court, in turn, “basing its decision
on the preponderance of the evidence, shall grant
such relief as the court determines is appropriate.”
Id. § 1415(i)(2)(C)(iii).
While the above-described administrative and
judicial proceedings are ongoing, under the
“pendency” or “stay-put” provisions of the IDEA and
New York law, “unless the State or local educational
agency and the parents otherwise agree, the child
shall remain in the then-current educational
placement of the child.” Id. § 1415(j); see also N.Y.
Educ. Law § 4404(4)(a). This allows the parties to
preserve “the educational status quo while the
parties’ dispute is being resolved.” T.M. ex rel. A.M.
v. Cornwall Cent. Sch. Dist., 752 F.3d 145, 152 (2d
Cir. 2014). An IHO then holds a hearing and issues
an interim order on pendency (“IOP”) that
determines (1) the student’s “pendency placement”
and (2) whether the DOE must provide tuition
reimbursement so the student may “stay put” in her
then-current educational placement while the
parent’s due process complaint is being adjudicated.
20 U.S.C. § 1415(j); see also S.G. v. Success Acad.
Charter Schs., Inc., No. 18 Civ. 2484, 2019 WL
1284280, at *6 (S.D.N.Y. Mar. 20, 2019); M.M. ex rel.

A11
J.M. v. N.Y. City Dep’t of Educ., No. 09 Civ. 5236,
2010 WL 2985477, at *11 (S.D.N.Y. July 27, 2010).
“If the student’s ‘current educational placement’ is in
private school, the responsibility for private school
tuition ‘stays put’ as well. Thus, if the district has
been paying for private school tuition, the district
must continue to do so until the moment when the
child’s pendency changes.” M.M. ex rel. J.M., 2010
WL 2985477, at *2 (internal quotation marks and
citation omitted). The parties may file an
interlocutory appeal of an IHO’s IOP decision to an
SRO, N.Y. Comp. Codes R. & Regs. tit. 8, § 279.10(d),
and then seek review of the SRO’s decision before a
federal district court, 20 U.S.C. § 1415(i)(2)(A).
This is the procedural posture before the Court.
II. Factual Background
Plaintiffs are the parents of G.S., a seven-yearold boy who suffers from a brain injury. Compl. ¶¶
6–7. The DOE has classified G.S. as a child with a
disability. Id. ¶ 8. During the 2017–2018 school year,
G.S. was a student at the International Academy of
Hope, or “iHope.” Id. ¶ 9. Plaintiffs filed a due
process complaint pursuant to 20 U.S.C. § 1415(f)(1)
(A) seeking tuition reimbursement at iHope for the
2017–2018 school year. See id. ¶ 10. On June 6,
2018, New York City IHO Suzanne M. Carter
awarded full tuition and costs at iHope to Plaintiffs
(the “IHO Carter Decision”). Id.; Ashanti Decl. Ex. A,
ECF No. 15-1. The DOE did not appeal this decision.
Compl. ¶ 11.
On June 22, 2018, Plaintiffs provided the
required ten-day notice to the DOE indicating that

A12
they were unilaterally moving G.S. from iHope to
iBrain for the 2018–2019 school year, where G.S.
remains a student. Id. ¶¶ 8, 12–13. Plaintiffs filed a
second due process complaint, this time seeking
tuition reimbursement for the 2018–2019 school year
at iBrain and additionally, as relevant here, seeking
an IOP directing the DOE to fund G.S.’s tuition at
iBrain until the due process complaint is resolved,
arguing that such funding was appropriate because
G.S.’s placement at iBrain was “substantially
similar” to his placement at iHope, which had been
fully funded pursuant to the IHO Carter Decision.
Id. ¶ 14; Ashanti Decl. Ex. D, ECF No. 15-4. On
August 27, 2018, New York City IHO Mindy G.
Wolman denied Plaintiffs’ IOP request (the “IHO
Wolman Decision”), Compl. ¶ 17; IHO Wolman
Decision, Ashanti Decl. Ex. F, ECF No. 15-6, holding
that G.S. was not entitled to pendency funding under
Section 1415(j) at iBrain because (1) Plaintiffs
unilaterally moved him there, and (2) the evidence
submitted by Plaintiffs was insufficient to establish
that G.S.’s program at iBrain was “substantially
similar” to his program at iHope. IHO Wolman
Decision at 4–6.
Plaintiffs appealed the IHO Wolman Decision to
the New York State Review Office. Compl. ¶ 18. On
November 9, 2018, SRO Steven Krolak issued a
decision (the “SRO Decision”) (1) that assumed
without deciding that G.S. could be entitled to an IOP
order despite being moved unilaterally by his parents,
(2) but that affirmed IHO Wolman’s denial of the IOP,
stating that SRO Krolak lacked sufficient information
to determine whether G.S.’s programs at iHope and
iBrain were “substantially similar.” SRO Decision at
11–14, Ashanti Decl. Ex. H, ECF No. 15-8.

A13
On March 8, 2019, Plaintiffs filed a complaint
against the DOE in this Court, seeking an order
(1) vacating the SRO Decision and (2) directing the
DOE to fund G.S.’s tuition at iBrain for the 2018–
2019 school year. Compl. at 5–6. On May 3, 2019,
Plaintiffs moved for a preliminary injunction seeking
such relief. See Pl. Mot.
DISCUSSION
I. Standard of Review
A district court reviewing a state administrative
decision under the IDEA “must engage in an
independent review of the administrative record and
make a determination based on a preponderance of
the evidence.” M.H. v. N.Y. City Dep’t of Educ., 685
F.3d 217, 240 (2d Cir. 2012) (internal quotation
marks and citation omitted). “In deciding what
weight is due to an IDEA administrative decision,”
the district court’s analysis will often “‘hinge on the
kinds of considerations that normally determine
whether any particular judgment is persuasive’ . . .
includ[ing] the quality and thoroughness of the
reasoning, the type of determination under review,
and whether the decision is based on the
administrative body’s familiarity with the evidence
and the witness.” Reyes ex rel. R.P. v. N.Y. City Dep’t
of Educ., 760 F.3d 211, 218 (2d Cir. 2014) (quoting
M.H., 685 F.3d at 244). Although the “federal court
is required to give due weight to the rulings of a local
or state administrative hearing officer, . . . [j]udicial
deference is particularly appropriate when the state
hearing officers’ review has been thorough and
careful.” M.C. ex rel. Mrs. C. v. Voluntown Bd. of

A14
Educ., 226 F.3d 60, 66 (2d Cir. 2000) (internal
quotation marks, citation, and alterations omitted).
The standard of review “requires a more critical
appraisal of the agency determination than clearerror review but nevertheless falls well short of
complete de novo review.” G.B. v. N.Y. City Dep’t of
Educ., 145 F. Supp. 3d 230, 245 (S.D.N.Y. 2015)
(quoting M.H., 685 F.3d at 244). “When seeking to
overturn an SRO’s decision, the [p]arents bear the
burden of demonstrating that the decision was
insufficiently reasoned or supported.” N.B. v. N.Y.
City Dep’t of Educ., 711 F. App’x 29, 32 (2d Cir. 2017)
(summary order).
II. Analysis
Plaintiffs seek a preliminary injunction pursuant
to 20 U.S.C. § 1415(j) that (1) overturns the SRO
Decision and (2) orders the DOE to fund G.S.’s
placement at iBrain for the 2018–2019 school year
until the underlying administrative proceedings are
resolved. See Pl. Mot.
A. Plaintiffs’ Unilateral Decision to Transfer G.S.
to iBrain
The parties agree that G.S.’s educational
placement for the purposes of pendency is based on
the unappealed IHO Carter Decision, which held
that iHope was an appropriate placement for G.S. for
the 2017–2018 school year.1 Def. Mem. at 7–8, ECF
Pendency can be based on “an unappealed administrative
decision.” Student X. v. N.Y. City Dep’t of Educ., No. 07 Civ.
2316, 2008 WL 4890440, at *20 (E.D.N.Y. Oct. 30, 2008). The
“pendency” or “stay-put” provision of 20 U.S.C. § 1415(j)

1

A15
No. 21; Compl. ¶ 15; SRO Decision at 9. Defendant
asserts, however, that G.S.’s pendency established
by that decision fails to establish pendency for
iBrain because Plaintiffs moved him from iHope to
iBrain. Def. Mem. at 7–8, 15.
Parents may unilaterally transfer their child
from an established pendency placement to another
educational setting so long as they comply with the
ten-day notice requirement and establish that the
two programs are substantially similar. See Navarro
Carrilo v. N.Y. City Dep’t of Educ., No. 19 Civ. 2944,
2019 WL 2511233, at *2–4 (S.D.N.Y. June 13, 2019),
appeal filed, No. 19-1813 (2d Cir. June 19, 2019)
(“[P]arents may move their child from a previously
approved private facility to another private facility
and still receive ‘stay put funding’ as long as the new
facility has the same ‘general type of educational
programming’ as the approved facility.” (citations
omitted)); Abrams v. Carranza, No. 19 Civ. 4175,
2019 WL 2385561, at *4 (S.D.N.Y. June 6, 2019)
(holding that parents are entitled to pendency
tuition funding after unilaterally moving their child
so long as parents demonstrate substantial
similarity of programs); cf. Honig v. Doe, 484 U.S.
305, 323 (1988) (noting that, with the pendency
provision, Congress sought to “strip schools of the
unilateral authority they had traditionally employed
“establishes a student’s right to a stable learning environment
during what may be a lengthy administrative and judicial
review.” Murphy v. Arlington Cent. Sch. Dist. Bd. of Educ., 297
F.3d 195, 199 (2d Cir. 2002). It “represents Congress’ policy
choice that all handicapped children, regardless of whether
their case is meritorious or not, are to remain in their current
educational placement until the dispute with regard to their
placement is ultimately resolved.” Doe v. E. Lyme Bd. of Educ.,
790 F.3d 440, 453 (2d Cir. 2015).

A16
to exclude disabled students . . . from school”). But
see De Paulino v. N.Y. City Dep’t of Educ., No. 19
Civ. 222, 2019 WL 1448088, at *6 (S.D.N.Y. Mar. 20,
2019), appeal filed, No. 19-1662 (2d Cir. June 3,
2019). The Court rejects, therefore, Defendant’s
argument that by shifting G.S. from one non-public
school to another Plaintiffs gave up their right to
invoke Section 1415(j)’s stay-put protections.
B. Substantial Similarity of iHope and iBrain
Programs
The Court now turns to the parties’ second
disagreement, namely, whether the iHope and
iBrain programs are “substantially similar.” When
determining whether two programs are
“substantially similar,” “a slate of factors” is
considered, including “whether the educational
program in the student’s IEP has been revised;
whether the student will be educated with
nondisabled peers to the same extent; and whether
the student will have the same opportunities to
participate in nonacademic and extracurricular
services.” Navarro Carrilo, 2019 WL 2511233, at *4;
see also T.M. ex rel. A.M. v. Cornwall Cent. Sch.
Dist., 752 F.3d 145, 171 (2d Cir. 2014) (“[T]he
pendency provision does not guarantee a disabled
child the right to remain in the exact same school
with the exact same service providers,” and instead
“guarantees only the same general level and type of
services that the disabled child was receiving.”); T.Y.
v. N.Y. City Dep’t of Educ., 584 F.3d 412, 419 (2d Cir.
2009) (“‘Educational placement’ refers to the general
educational program—such as the classes,
individualized attention and additional services a

A17
child will receive—rather than the ‘bricks and
mortar’ of the specific school.” (citation omitted));
Concerned Parents & Citizens for the Continuing
Educ. at Malcolm X (PS 79) v. N.Y. City Bd. of
Educ., 629 F.2d 751, 753–54 (2d Cir. 1980) (noting
that “the term ‘educational placement’ refers only to
the general educational program in which the
handicapped child is placed,” not a specific school).
Here, the SRO Decision incorrectly concluded
that “there is insufficient information about some
important details with respect to the program
provided to the student at iHope during the 2017–
18 school year to make a reasonable determination
as to whether the transfer of the student to iBrain
constituted a change in educational placement or is a
substantially similar placement.” SRO Decision at
13. This is because SRO Krolak failed to conduct a
thorough inquiry and analysis. As SRO Krolak noted
at the beginning of his opinion, he was “required to
examine the entire hearing record . . . [and] seek
additional evidence if necessary.” SRO Decision at 2;
see also 34 C.F.R. § 300.514(b)(2)(iii) (“The official
conducting the review must . . . [s]eek additional
evidence if necessary.”). But, despite SRO Krolak’s
repeated complaint that he lacked evidence, he did
not search for supplementation. For example, the
iHope IEP that SRO Krolak deemed missing from
the record was relied upon by the IHO Carter
Decision awarding full tuition and costs at iHope for
the 2017–2018 year. Compare SRO Decision at 12–
13, with Ashanti Decl. ¶ 6 & Ex. A, ECF No. 15-1.
Additionally, although SRO Krolak primarily
focused on the absence of evidence with respect to
G.S.’s program at iHope, he also noted that the
record did not include information about certain

A18
services at iBrain, including “hearing education
services.” SRO Decision at 13. G.S., however, does
not receive hearing education services at iBrain.
Ashanti Decl. Ex. I, ECF Nos. 15-9, 15-10. These
deficiencies in the SRO Decision illustrate an abject
lack of thoroughness and sound analysis.
Moreover, on January 3, 2019, Plaintiffs
submitted a motion to IHO Wolman seeking leave to
introduce additional evidence in support of their
application for pendency. Ashanti Decl. ¶ 18, ECF
No. 15. The evidence consists of an affidavit of Nia
Mensah, Doctor of Physical Therapy, who is the
Clinical Director at iBrain and former Director of
Physical Therapy at iHope. Mensah Decl. ¶¶ 1–2,
Ashanti Decl. Ex. I, ECF No. 15-9 at 6–7. Curiously,
IHO Wolman recused herself before ruling on the
motion, as did a series of other IHOs before the
action was eventually assigned to IHO Edgar De
Leon, who has not yet ruled on it. Ashanti Decl. ¶¶
19–41.
The Court shall consider Dr. Mensah’s affidavit.
See 20 U.S.C. § 1415(i)(2)(C)(ii) (“[T]he court . . .
shall hear additional evidence at the request of a
party.”). Dr. Mensah identifies the many similarities
between G.S.’s programs at iHope and iBrain. At
iBrain—like at iHope—G.S. (1) is in a 6:1+12 special
class; (2) has a full-time paraprofessional and school
nursing services available to him as needed
throughout the day; (3) receives the following oneon-one sixty-minute sessions: physical therapy five
times a week, occupational therapy five times a
“6:1+1” refers to “a special education class with six students,
one special education teacher, and one paraprofessional.” See
S.Y. v. N.Y. City Dep’t of Educ., 210 F. Supp. 3d 556, 564
(S.D.N.Y. 2016).

2

A19
week, and vision education services three times a
week; (4) has a parent counseling and training
mandate once per month for sixty minutes; and (5)
has special transportation accommodations, which
include a travel paraprofessional, limited travel
time, air conditioning, and a wheelchair-accessible
vehicle. Mensah Decl. ¶¶ 7–8. At iHope, G.S.
received one-on-one speech-language therapy four
times weekly and once weekly in a group setting,
whereas at iBrain he receives it one-on-one five
times weekly. Id. At iBrain, G.S. has one weekly
sixty-minute assistive technology services session;
such services were also available at iHope. Id. ¶¶ 6–
7. Dr. Mensah notes that iBrain has many of the
same students and staff as iHope, because “some of
iHope’s paraprofessionals, teachers and related
services providers as well as most of its students,
moved to iBrain upon iBrain’s inception in 2018.” Id.
¶ 9. Although a few services were not offered in
September 2018, as iBrain was starting up, Dr.
Mensah states that these deficiencies were shortlived and that any missed sessions will be made up,
including the single missed parent counseling and
training session that has already been made up. Id.
¶ 7(A)–(B); see also Navarro Carrilo, 2019 WL
2511233, at *17 (“I cannot find . . . that the failure to
have a vision specialist on staff during the first two
and a half months of the school year is an
‘elimination’ of vision support services, such that
iBrain was not ‘substantially similar’ to iHope.”).
“Substantially similar,” by its own terms, does
not require sameness.3 The record demonstrates,
As the Second Circuit has observed, an interpretation of
change in “educational placement” that would include any

3

A20
therefore, by a preponderance of the evidence that
G.S.’s program at iBrain for the 2018–2019 school
year is substantially similar to his program at iHope
for the 2017–2018 school year. Accordingly, G.S. is
entitled to pendency at iBrain for the 2018–2019
school year.4
C. Preliminary Injunction
Defendant’s remaining argument is that an
injunction under Section 1415(j) is not “automatic”—
that is, Plaintiffs must still meet the traditional
requirements to obtain a preliminary injunction.
Def. Mem. at 8–10 (citing Pl. Mem. at 8, ECF No.
14). Specifically, Defendant argues that Plaintiffs
are not entitled to an injunction because “there is no
threat to the stability of G.S.’s learning experience”
and “no evidence he will be expelled from iBrain”
absent an injunction. Id. at 9. The Court disagrees.
Defendant contends that Section 1415(j) is
motivated in part by a student’s interest in
maintaining a stable learning environment. Id.
(citing Cohen v. N.Y. City Dep’t of Educ., No. 18 Civ.
11100, 2018 WL 6528241, at *2 (S.D.N.Y. Dec. 12,
2018) (noting that the Second Circuit’s “automatic
preliminary injunction” directive “has less purchase
program changes would significantly hamper the ability of the
DOE to implement even minor discretionary changes for
its students. Concerned Parents, 629 F.2d at 755. Where, as
here, parents transfer their child from one private school to
another, there is no need to more strictly interpret changes in
educational placement.
4 Because the Court deems the programs at iHope and iBrain
substantially similar, it does not address Plaintiffs’ alternative
arguments concerning a theory of operative placement. Pl.
Mem. at 20–23.

A21
. . . in a case where there is no meaningful threat
that a student will be removed from his pendency
placement”); Cronin v. Bd. of Educ. of E. Ramapo
Cent. Sch. Dist., 689 F. Supp. 197, 202 (S.D.N.Y.
1988) (“The touchstone in interpreting section 1415
has to be whether the decision is likely to affect in
some significant way the child’s learning
experience.” (internal quotation marks and citation
omitted))).
However, the Second Circuit has described
Section 1415(j) as “an automatic preliminary
injunction,” and noted that it “substitutes an
absolute rule in favor of the status quo for the court’s
discretionary consideration of the factors of
irreparable harm and either a likelihood of success
on the merits or a fair ground for litigation and a
balance of hardships.” Zvi D. by Shirley D. v.
Ambach, 694 F.2d 904, 906 (2d Cir. 1982). Another
court in this District recently considered and
rejected Defendant’s argument that there must be a
threat to a child’s learning experience for Section
1415(j) to apply. Abrams, 2019 WL 2385561, at *5.
That court noted that, “[w]hile a few district courts
have made the commonsense observation that
plaintiffs might not be entitled to such an injunction
if they have not shown any true danger exists, they
have not relied on that observation to decline to
grant a preliminary injunction or otherwise
disturbed the well settled law that irreparable harm
need not be shown to obtain injunctive relief
regarding pendency.” Id. (internal quotation marks
and citations omitted); see also Cruz v. N.Y. City
Dep’t of Educ., No. 18 Civ. 12140, 2019 WL 147500,
at *9 (S.D.N.Y. Jan. 9, 2019) (“[T]his Court does not
read Cohen as seeking to overturn well settled law

A22
that irreparable harm need not be shown to obtain
injunctive relief regarding pendency.”). The Court
agrees with Abrams and holds that Plaintiffs need
not demonstrate irreparable harm in order to prove
their entitlement to injunctive relief with respect to
pendency.5
In actions brought under Section 1415, a court
has the discretion to “grant such relief as the court
determines is appropriate.” 20 U.S.C. § 1415(i)(2)
(C)(iii). Here, the prerequisites for a preliminary
injunction under Section 1415(j) have been met.
CONCLUSION
For the reasons stated above, Plaintiffs’ motion
for a preliminary injunction (1) vacating SRO
Decision 18-113 dated November 9, 2018 and (2)
ordering the DOE to fund G.S.’s pendency placement
at iBrain for the 2018–2019 school year until a final
adjudication on the due process complaint is
complete is GRANTED.
The Clerk of Court is directed to terminate the
motion at ECF No. 13. Plaintiffs’ counsel shall
submit a motion for attorney’s fees by September 6,
2019. If agreement on attorney’s fees can be reached,
Defendant cites to two opinions from this District which held
that absent imminent threat of expulsion the parents’ requests
for preliminary injunctions to find pendency were to be denied.
Def. Mem. at 9 (citing Cohen, 2018 WL 6528241, at *3; Fiallos
v. N.Y. City Dep’t of Educ., No. 19 Civ. 334 (S.D.N.Y. Apr. 5,
2019), ECF No. 36). The Court declines to follow these decisions
and instead joins those cases which held that (1) injury existed
to establish jurisdiction and (2) the prerequisites to preliminary
injunctions were met absent a showing of irreparable harm. See
Navarro Carrilo, 2019 WL 2511233; Abrams, 2019 WL
2385561.

5

A23
the parties shall submit a consent judgment within
the same.
SO ORDERED.
Dated: August 7, 2019
New York, New York
/S/ ANALISA TORRES
United States District Judge

A24

In the
United States Court of Appeals
for the Second Circuit
____________
AUGUST TERM 2019
No. 19-1662-cv
ROSA ELBA VENTURA DE PAULINO,
INDIVIDUALLY AND AS P/N/G OF R.P.,
Plaintiff-Appellant,
v.
NEW YORK CITY DEPARTMENT OF
EDUCATION AND NEW YORK STATE
EDUCATION DEPARTMENT
Defendants-Appellees,
ROBERT BRIGILIO,
Defendant.
______________
On Appeal from the United States District Court
for the Southern District of New York
______________

A25
No. 19-1813-cv
MARIA NAVARRO CARRILLO, AS PARENT AND
NATURAL GUARDIAN OF M.G. AND
INDIVIDUALLY; JOSE GARZON, AS PARENT
AND NATURAL GUARDIAN OF M.G. AND
INDIVIDUALLY,
Plaintiffs-Appellees,
v.
NEW YORK CITY DEPARTMENT OF
EDUCATION,
Defendant-Appellant.*
____________
On Appeal from the United States District Court
for the Southern District of New York
____________
ARGUED: JANUARY 28, 2020
DECIDED: MAY 18, 2020
____________
Before: LEVAL, CABRANES, AND SACK, Circuit
Judges.
The plaintiffs in these tandem cases, parents of
students with disabilities (“Parents”), chose to
withdraw their children (“Students”) from one private
school and to enroll them in a new private school.
Shortly after, the Parents initiated administrative
____________________

* The Clerk of Court is directed to amend the official caption as
shown above.

A26
proceedings to challenge the adequacy of the
Students’ individualized educational programs
(“IEPs”), written statements developed by a local
committee on special education that set out, among
other things, the Students’ educational needs and
the services that must be provided to meet those
needs. The Parents sued the New York City
Department of Education (“City”) under the
Individuals with Disabilities Education Act to obtain
public funding for the new school’s tuition and
services during the pendency of those proceedings.
In the first case, Ventura de Paulino v. New York
City Department of Education, No. 19-1662-cv,
Plaintiff-Appellant Rosa Elba Ventura de Paulino
appeals from an order denying her application for a
preliminary injunction and from a final judgment
entered on May 31, 2019, in the United States
District Court for the Southern District of New York
(George B. Daniels, Judge), dismissing her lawsuit.
In the second case, Navarro Carrillo v. New York
City Department of Education, No. 19-1813-cv, the
City appeals from an order entered on June 13, 2019,
in the United States District Court for the Southern
District of New York (Colleen McMahon, Chief
Judge), granting an application by PlaintiffsAppellees Maria Navarro Carrillo and Jose Garzon
for a preliminary injunction directing the City to pay
for the new school’s tuition and educational services.
Although these tandem cases come to us in
different procedural postures, the question presented
on appeal is the same: whether parents who
unilaterally enroll their child in a new private school
and challenge the adequacy of the child’s IEP are
entitled to public funding for the new school during
the pendency of the IEP dispute, on the basis that

A27
the educational program being offered at the new
school is substantially similar to the program that
was last agreed upon by the parents and the school
district and was offered at the previous school.
On de novo review, we conclude that such
parents are not entitled to public funding because it
is the school district, not the parents, who has the
authority to decide how a child’s last agreed-upon
educational program is to be provided at public
expense during the pendency of the child’s IEP
dispute.
Accordingly, the May 31, 2019 judgment in favor
of the City in Ventura de Paulino is AFFIRMED.
And the June 13, 2019 order granting the
application for preliminary injunction against the
City in Navarro Carrillo is VACATED, and the
cause REMANDED with instructions to dismiss the
complaint for failure to state a claim upon which
relief can be granted.
_____________
KARL J. ASHANTI (Peter G. Albert, on the brief),
Brain Injury Rights Group, Ltd., New York, NY, for
Plaintiff-Appellant in Ventura de Paulino, and
KARL J. ASHANTI (Peter G. Albert, on the brief),
Brain Injury Rights Group, Ltd., New York, NY, for
Plaintiffs-Appellees in Navarro Carrillo.
ERIC LEE, Assistant Corporation Counsel (Richard
Dearing and Scott Shorr, on the brief), for James E.
Johnson, Corporation Counsel of the City of New
York, New York, NY, for City Defendant-Appellee in
Ventura de Paulino, and ERIC LEE, Assistant
Corporation Counsel (Richard Dearing and Scott

A28
Shorr, on the brief), for James E. Johnson,
Corporation Counsel of the City of New York, New
York, NY, for Defendant-Appellant in Navarro
Carrillo.
BLAIR J. GREENWALD, Assistant Solicitor General
(Barbara D. Underwood, Solicitor General, and
Steven C. Wu, Deputy Solicitor General, on the
brief), for Letitia James, Attorney General, State of
New York, New York, NY, for State DefendantAppellee in Ventura de Paulino.
_____________
JOSÉ A. CABRANES, Circuit Judge:
The plaintiffs in these tandem cases, parents of
students with disabilities (“Parents”), chose to
withdraw their children (“Students”) from one
private school and to enroll them in a new private
school. Shortly after, the Parents initiated
administrative proceedings to challenge the
adequacy of the Students’ individualized education
programs (“IEPs”), written statements developed by
a local committee on special education that set out,
among other things, the Students’ educational needs
and the services that must be provided to meet those
needs.1 The Parents also sued the New York City
More specifically, the IEP is “a written statement that
sets out the child’s present educational performance,
establishes annual and short-term objectives for improvements
in that performance, and describes the specially designed
instruction and services that will enable the child to meet those
objectives.” M.H. v. N.Y. City Dep’t of Educ., 685 F.3d 217, 224
(2d Cir. 2012) (internal quotation marks and citation omitted).
The State of New York “has assigned responsibility for
developing appropriate IEPs to local Committees on Special
1

A29
Department of Education (“City”) under the
Individuals with Disabilities Education Act
(“IDEA”)2 to obtain public funding for the new
school’s tuition and services during the pendency of
the Students’ IEP disputes.
In the first case, Ventura de Paulino v. New York
City Department of Education, No. 19-1662-cv,
Plaintiff-Appellant Rosa Elba Ventura de Paulino
(“Ventura de Paulino”) appeals from an order
denying her application for a preliminary injunction
and from a final judgment entered on May 31, 2019,
in the United States District Court for the Southern
District of New York (George B. Daniels, Judge),
dismissing her lawsuit. In the second case, Navarro
Carrillo v. New York City Department of Education,
No. 19-1813-cv, the City appeals from an order
entered on June 13, 2019, in the United States
District Court for the Southern District of New York
(Colleen McMahon, Chief Judge), granting an
application by Plaintiffs-Appellees Maria Navarro
Carrillo (“Navarro Carrillo”)3 and Jose Garzon

Education . . ., the members of which are appointed by school
boards or the trustees of school districts.” Id. (internal
quotation marks and citation omitted); see also N.Y. Educ. Law
§ 4402(1)(b)(1).
2

20 U.S.C. §§ 1400–1482.

The record reveals that the name of Plaintiff-Appellee is
Maria Navarro Carrillo, not Maria Navarro Carrilo as referred
to by counsel. We note that “Carrillo,” unlike “Carrilo,” is a
common Hispanic surname. Indeed, the administrative
proceedings and school enrollment documents correctly identify
her surname as “Navarro Carrillo,” see, e.g., Navarro Carrillo
Joint App’x at 80, 83, 89, 143. The name was changed to
“Carrilo,” a misspelling of her maternal surname, by her
3

A30
(“Garzon”) for a preliminary injunction directing the
City to pay for the new school’s tuition and
educational services.4
Although these tandem cases come to us in
different procedural postures, they present the same
material facts and legal issues. The Students’
educational program that was last agreed upon by
the City and the Parents in the end of the 2017-2018
school year listed the International Academy of Hope
(“iHOPE”), a private school, as the Students’
educational provider. Prior to the beginning of the
2018-2019 school year, the Parents unilaterally
enrolled the Students in a new private school, the
counsel when filing the complaint. The misspelled name was
used throughout the litigation of her case.
Because there appears to be some confusion in the briefs
as to the correct surname of the Parents in these tandem cases,
we take this opportunity to recall the proper usage of Hispanic
names and surnames. As a general rule, according to Spanish
naming conventions, Hispanics typically have two surnames.
The first last name is the father’s family name, and the second
last name is the mother’s paternal family name. A person may
be “known by merely his father’s name, as in English; still in
all formal cases,” or where the father’s name is common, the
mother’s name is often used in addition to the father’s name.
MARATHON MONTROSE RAMSEY, A TEXTBOOK OF
MODERN SPANISH, AS NOW WRITTEN AND SPOKEN IN
CASTILE AND THE SPANISH AMERICAN REPUBLICS 678
(Rev. New York: H. Holt and Co. 1958) (Orig. Publ. 1894); see
also Wendy Squires, A Short Guide to Establishing a
Multilingual Practice, 50 No. 6 PRAC. LAW. 31, 33 (2004).
Here, with respect to Ms. Maria Navarro Carrillo, we assume
based on the record that her father’s last name is “Navarro”
and her mother’s paternal family name is “Carrillo.” Therefore,
for purposes of her legal identification, the last name of Maria
Navarro Carrillo is “Navarro Carrillo,” or just “Navarro.”
Referring to her as “Carrillo,” or to the family as the “Carrillos,”
is incorrect.
4

A31
International Institute for the Brain (“iBRAIN”). On
appeal, the Parents contend that the City is
obligated to pay for the Students’ tuition at iBRAIN
because
iBRAIN’s
educational
program
is
substantially similar to the program that was offered
at iHOPE, which the City consented to and paid for.
The question presented in these cases is one of
first impression: whether under the “stay-put”
provision of the IDEA parents who unilaterally
enroll their child in a new private school and
challenge the child’s IEP are entitled to public
funding for the new school during the pendency of
the IEP dispute, on the basis that the educational
program being offered at the new school is
substantially similar to the program that was last
agreed upon by the parents and the school district
and was offered at the previous school. More
fundamentally stated, we must determine whether
the fact that the school district has authority to
decide how the child’s agreed-upon educational
program is to be provided during the pendency of an
IEP dispute means that the parents also have such
authority.
In the circumstances presented, we conclude, on
de novo review, that parents are not entitled to such
public funding because it is generally up to the
school district to determine how an agreed-upon
program is to be provided during the pendency of the
IEP dispute. Regardless of whether iBRAIN’s
educational program is substantially similar to that
offered previously at iHOPE, the IDEA does not
require the City to fund the Students’ program at
iBRAIN during the pendency of their IEP dispute;
when the Parents unilaterally enrolled the Students

A32
at iBRAIN, the Parents did so at their own financial
risk.
Accordingly, in Ventura de Paulino, we AFFIRM
the May 31, 2019 judgment of the District Court in
favor of the defendant school system; in Navarro
Carrillo, we VACATE the District Court’s June 13,
2019 order granting the application for a
preliminary injunction against the school system
and REMAND the cause with instructions to
dismiss the complaint for failure to state a claim
upon which relief can be granted.5
I. BACKGROUND
A. The IDEA’s Legal Framework
The IDEA authorizes the disbursement of
federal funds to States6 that develop appropriate
plans to, among other things, provide a free and
appropriate public education (“FAPE”) to children
with disabilities.7 To provide a FAPE to each student
A third case presenting the same legal question, see
Mendez v. New York City Department of Education, No. 191852-cv, was argued before this Court on the same day,
January 28, 2020, along with these tandem cases. We have
disposed of the appeal in Mendez by summary order filed
simultaneously herewith, in which we dismiss the case for lack
of appellate jurisdiction. Of course, upon the issuance of the
mandate in Ventura de Paulino and Navarro Carrillo, our
analysis in this opinion will bind the District Court in Mendez.
5

“The term ‘State’ [in the IDEA] means each of the 50
States, the District of Columbia, the Commonwealth of Puerto
Rico, and each of the outlying areas.” 20 U.S.C. § 1401(31).
6

See Arlington Cent. Sch. Dist. Bd. of Educ. v. Murphy,
548 U.S. 291, 295 (2006); see also 20 U.S.C. § 1412(a)(1)(A).
7

A33
with a disability, a school district must develop an
IEP that is “reasonably calculated to enable the child
to receive educational benefits.”8 The IEP must
identify the student’s “particular educational needs .
. . and the services required to meet those needs.”9
The IDEA also requires participating States to
develop an administrative review process for parents
who are dissatisfied with their child’s education and
wish to challenge the adequacy of the child’s IEP.10
To that effect, the State of New York “has
implemented a ‘two-tier system of administrative
review.’”11 In the first tier, a parent can file an
administrative “due process complaint” challenging
the IEP and requesting a hearing before an
impartial hearing officer.12 The party aggrieved by
the hearing officer’s decision may then “proceed to
the second tier, ‘an appeal before a state review
officer.’”13 Once the state review officer makes a final
T.M. ex rel. A.M. v. Cornwall Cent. Sch. Dist., 752 F.3d
145, 151 (2d Cir. 2014) (quoting Bd. of Educ. v. Rowley, 458
U.S. 176, 207 (1982)).
8

Walczak v. Fla. Union Free Sch. Dist., 142 F.3d 119, 122
(2d Cir. 1998).
9

10

20 U.S.C. § 1415(b)(6)–(8).

Mackey ex rel. Thomas M. v. Bd. of Educ. for the
Arlington Cent. Sch. Dist., 386 F.3d 158, 160 (2d Cir. 2004)
(quoting Murphy v. Arlington Cent. Sch. Dist. Bd. of Educ., 297
F.3d 195, 197 (2d Cir. 2002)).
11

Id. (citing N.Y. Educ. Law § 4404(1); 20 U.S.C. §
1415(f)).
12

Id. (quoting Murphy, 297 F.3d at 197) (citing N.Y. Educ.
Law § 4404(2); 20 U.S.C. § 1415(g)).
13

A34
decision, the aggrieved party may seek judicial
review of that decision in a state or federal trial
court.14
At the crux of these cases is a provision in the
IDEA known as the “pendency” or “stay-put”
It
provides
that,
while
the
provision.15
administrative and judicial proceedings are pending
and “unless the school district and the parents agree
otherwise,” a child must remain, at public expense,
“in his or her then-current educational placement.”16
The term “educational placement” refers “only to the
general type of educational program in which the
child is placed”17—i.e., “the classes, individualized
attention and additional services a child will
receive.”18
Parents who are dissatisfied with their child’s
education can “unilaterally change their child’s
placement during the pendency of review
proceedings”19 and can, for example, “pay for private
14

See id. (citing 20 U.S.C. § 1415(i)(2)).

15

See 20 U.S.C. § 1415(j).

Mackey, 386 F.3d at 160 (citing 20 U.S.C. § 1415(j)). The
IDEA’s implementing regulations under federal law, see 34
C.F.R. § 300.514(a) (“Child’s status during proceedings”), and
New York state law, see N.Y. Educ. L. § 4404(4)(a), impose the
same requirement.
16

Concerned Parents v. N.Y. City Bd. of Educ., 629 F.2d
751, 753 (2d Cir. 1980).
17

T.Y. v. N.Y. City Dep’t of Educ., 584 F.3d 412, 419 (2d
Cir. 2009).
18

Sch. Comm. of the Town of Burlington, Mass. v. Dep’t of
Educ. of Mass., 471 U.S. 359, 373–74 (1985) (“Burlington”); see
19

A35
services, including private schooling.”20 They “do so,”
however, “at their own financial risk.”21 They can
obtain retroactive reimbursement from the school
district after the IEP dispute is resolved, if they
satisfy a three-part test that has come to be known
as the Burlington-Carter test.22 A parent can obtain
such reimbursement if: “(1) the school district’s
proposed placement violated the IDEA” by, for
example, denying a FAPE to the student because the
IEP was inadequate; (2)“the parents’ alternative
private placement was appropriate”; and (3)
“equitable considerations favor reimbursement.”23
B.
The
Parties’
Relationship
Administrative Proceedings

and

Ventura de Paulino is the mother of R.P., and
Navarro Carrillo and Garzon are the parents of M.G.
Both Students, R.P. and M.G., are minors with
disabilities stemming from acquired brain injuries,
who are entitled to a FAPE under the IDEA. During
the 2017-2018 academic year, the Students were
unilaterally enrolled by the Parents at iHOPE, a
also Florence Cty. Sch. Dist. Four v. Carter, 510 U.S. 7, 15
(1993) (“Carter”).
T.M., 752 F.3d at 152 (citations omitted); see also R.E. v.
N.Y. City Dep’t of Educ., 694 F.3d 167, 175 (2d Cir. 2012).
20

21

Burlington, 471 U.S. at 374.

E.M. v. N.Y. City Dep’t of Educ., 758 F.3d 442, 451 (2d
Cir. 2014).
22

T.M., 752 F.3d at 152 (citations omitted); see also E.M.,
758 F.3d at 451.
23

A36
private school. The Parents filed due process
complaints alleging that the Students’ IEPs
proposed by the local committee on special education
for that school year was inadequate and that
iHOPE’s IEP was appropriate for the Students.
In both instances—in June 2018 in the case of
R.P., and in April 2018 in the case of M.G.—
impartial hearing officers determined that: (1) the
City had failed to provide the Students with a FAPE
in violation of the IDEA; (2) the Parents’ alternative
placement at iHOPE for the 2017-2018 school year
was appropriate; and (3) equitable considerations
favored reimbursement to the Parents. The
impartial hearing officers ordered the City to
reimburse the Parents for the expenses incurred at
iHOPE during the 2017-2018 school year and
ordered the local committee on special education to
draft a new IEP that incorporates all the items of
iHOPE’s IEP. The City did not appeal.
Following the reimbursement orders, in or
around June 2018, the Parents unilaterally enrolled
the Students at iBRAIN, a newly created private
school, for the 2018-2019 school year. On July 9,
2018, the Students’ first day at iBRAIN, the Parents
filed a due process complaint alleging that the City
continued to fail to provide the Students with a
FAPE for the new school year. In that complaint, the
Parents asked for an order pursuant to the IDEA’s
stay-put provision directing the City to fund the
Students’ placement at iBRAIN during the pendency
of the proceedings.
On November 22, 2018, the impartial hearing
officer in R.P.’s proceeding denied the request for a
pendency order and concluded that, consistent with
the June 2018 administrative order that the City did

A37
not appeal, iHOPE was R.P.’s pendency placement.
Although Ventura de Paulino quickly appealed the
interim decision to a state review officer, she did not
wait for a final decision and filed a complaint in the
district court.
On March 5, 2019, the impartial hearing officer
in M.G.’s proceeding denied the request for a
pendency order on the basis that iBRAIN and
iHOPE were not substantially similar and that
M.G.’s pendency placement remained at iHOPE.
Navarro Carrillo and Garzon did not appeal the
interim decision to a state review officer. Instead,
they too filed their own complaint in the district
court.
C. District Court Proceedings
On January 9, 2019, Ventura de Paulino filed
her complaint seeking, among other things, a
preliminary injunction requiring the City to pay for
R.P.’s iBRAIN tuition and services. On March 20,
2019, the District Court rejected the City’s argument
that Ventura de Paulino was required to exhaust
New York’s two-tier review process, but denied her
application for emergency relief.24 On May 31, 2019,
the District Court granted the City’s motion to
dismiss the complaint for failure to state a claim
upon which relief can be granted, as well as the
motion to dismiss by co-defendant State of New

See Ventura de Paulino v. N.Y. City Dep’t of Educ., No.
19-cv-222 (GBD), 2019 WL 1448088, at *1, 5–7 (S.D.N.Y. Mar.
20, 2019), reconsideration denied sub nom. Ventura De Paulino
v. N.Y. City Dep’t of Educ., No. 19-cv-222 (GBD), 2019 WL
2498206 (S.D.N.Y. May 31, 2019).
24

A38
York.25 Final judgment dismissing the case was
entered on the same day.26
On April 2, 2019, Navarro Carrillo and Garzon
filed their complaint seeking the exact same remedy
sought by Ventura de Paulino. On June 13, 2019,
after concluding that iHOPE and iBRAIN were
substantially similar, the District Court granted the
requested preliminary injunction and vacated the
March 2019 Interim Order by the impartial hearing
officer in M.G.’s proceeding.27 The District Court
ordered the City to pay for M.G.’s education at
iBRAIN during the pendency of M.G.’s FAPE
proceeding.28
These appeals followed. In Navarro Carrillo, the
District Court granted the City’s motion to stay the
order of preliminary injunction pending the City’s
interlocutory appeal.

See Ventura De Paulino v. N.Y. City Dep’t of Educ., No.
19-cv-222 (GBD), 2019 WL 2499204, at *1–3 (S.D.N.Y. May 31,
2019).
25

On appeal, Ventura de Paulino’s reply brief belatedly
objects to the dismissal of the State of New York, but her
failure to raise the objection in her opening brief waived any
challenge to the District Court’s dismissal. See EDP Med.
Computer Sys., Inc. v. United States, 480 F.3d 621, 625 n.1 (2d
Cir. 2007). In any event, any such challenge to the dismissal
would be meritless, since Ventura de Paulino’s complaint does
not plausibly allege any claims against the State of New York,
or even seek any relief from it.
26

Navarro Carrilo v. N.Y. City Dep’t of Educ., 384 F. Supp.
3d 441, 459–65 (S.D.N.Y. 2019).
27

28

Id. at 465.

A39
D. Unfamiliar Litigation and a Curious Set
of Facts
Before proceeding to analyze the Parents’ claims,
we would be remiss not to emphasize the somewhat
unusual set of facts presented in these tandem cases,
which in turn have given rise to an unfamiliar
pattern of IDEA litigation. To our knowledge, these
tandem cases are just two of approximately 23 cases
presenting similar, if not virtually identical, legal
questions in our Court and in the Southern District
of New York. In these cases, the parents or natural
guardians of the students with disabilities
transferred their children from iHOPE to iBRAIN
for the 2018-2019 school year without the City’s
consent and are now claiming that they are entitled
to an order requiring the City to pay for the
educational services at iBRAIN on a pendency basis.
The vast majority, if not all, of these plaintiffs are
represented by the Parents’ counsel in these tandem
cases.
The
arguably
unusual
circumstances
surrounding the mass exodus of students from
iHOPE to iBRAIN were thoroughly described by
Judge Jesse M. Furman of the Southern District of
New York in one of the many iHOPE-to-iBRAINpendency cases.29 It has been alleged that, during
the summer of 2018, there was a “’split between the
While tangential to our disposition of the Parents’ legal
claims, we rely on Judge Furman’s summary as an interesting
backdrop for our analysis set forth below. See Ferreira v. N.Y.
City Dep’t of Educ., No. 19-cv-2937 (JMF), 2020 WL 1158532, at
*2 n.1 (S.D.N.Y. Mar. 6, 2020) (denying the parent’s motion for
summary judgment and application for preliminary injunction,
and granting the City’s cross-motion for summary judgment),
appeal filed No. 20-908-cv (2d Cir. Mar. 13, 2020).
29

A40
original founders and some of the [iHOPE] board’
over whether [iHOPE] should admit students with
disabilities besides traumatic brain injuries,”30 and
that “‘the original founders and some of the
administration w[ere] ousted’ from [iHOPE].”31
Donohue left iHOPE and became the founder and
registered agent of iBRAIN.32 Donohue also happens
to be the founder of the Brain Injury Rights Group,33
the law firm representing the Parents in these
tandem cases and the other plaintiffs seeking public
funding from the City for iBRAIN’s tuition and
related services.
II. DISCUSSION
A. Standard of Review
We review a district court’s grant of a motion to
dismiss a complaint de novo, “credit[ing] all nonconclusory factual allegations in the complaint and
draw[ing] all reasonable inferences in [the plaintiffs’]

Id. (quoting Fiallos v. N.Y. City Dep’t of Educ., No. 19-cv334 (JGK) (S.D.N.Y. Sept. 16, 2019), ECF No. 59, at 6-7, appeal
filed No. 19-1330-cv (2d Cir. May 3, 2019)).
30

Id. (quoting Mendez v. N.Y. City Dep’t of Educ., No. 19CV-2945 (DAB) (S.D.N.Y. Sept. 20, 2019), ECF No. 27, at 6-7,
17, appeal filed No. 19-1852-cv (2d Cir. June 24, 2019)).
31

Id. (quoting Navarro Carrilo, 384 F. Supp. 3d at 447,
450 (alteration omitted)) (citing Docket No. 19-cv-2937, ECF
No. 33, at 11 & n.9, 169).
32

Id. (citing Donohue v. N.Y. City Dep’t of Educ., No. 18CV-9364 (DAB) (S.D.N.Y. Oct. 18, 2018), ECF No. 7, ¶ 8; id.
ECF No. 34, at 2).
33

A41
favor,”34 to determine “whether such allegations and
inferences plausibly indicate [the plaintiffs’]
entitlement to relief.”35 Similarly, “questions of law
decided in connection with requests for preliminary
injunctions . . . receive the same de novo review that
is appropriate for issues of law generally.”36
Ordinarily, to obtain a preliminary injunction,
the movant has to “show (a) irreparable harm and
(b) either (1) likelihood of success on the merits or (2)
sufficiently serious questions going to the merits to
make them a fair ground for litigation and a balance
of hardships tipping decidedly toward the party
requesting the preliminary relief.”37 But where the
IDEA’s stay-put provision is implicated, the
provision triggers the applicability of an automatic
injunction designed to maintain the child’s
educational status quo while the parties’ IEP dispute
is being resolved.38
Loreley Fin. (Jersey) No. 3 Ltd. v. Wells Fargo Sec., LLC,
797 F.3d 160, 171 (2d Cir. 2015) (citing Nielsen v. Rabin, 746
F.3d 58, 62 (2d Cir. 2014)).
34

35

(2009)).

Id. (citing Ashcroft v. Iqbal, 556 U.S. 662, 678–80

Am. Express Fin. Advisors Inc. v. Thorley, 147 F.3d 229,
231 (2d Cir. 1998).
36

Citigroup Glob. Markets, Inc. v. VCG Special
Opportunities Master Fund Ltd., 598 F.3d 30, 35 (2d Cir. 2010).
37

See Zvi D. v. Ambach, 694 F.2d 904, 906 (2d Cir. 1982)
(stating that the stay-put provision “is, in effect, an automatic
preliminary injunction” that “substitutes an absolute rule in
favor of the status quo for the court’s discretionary
consideration of the factors of irreparable harm and either a
likelihood of success on the merits or a fair ground for litigation
and a balance of hardships”); see also Arlington Cent. Sch. Dist.
38

A42
Because we conclude on de novo review that the
Parents’ complaints fail to state a claim upon which
relief can be granted, we need not decide what
standard applies to the Parents’ request for
preliminary injunctive relief.39
B. Exhaustion of Administrative Remedies
The IDEA requires that any available
administrative remedies be exhausted before a
lawsuit is filed in federal court.40 There are,
however, some exceptions to the IDEA’s exhaustion
requirement.41 We have stated in the past that,
v. L.P., 421 F. Supp. 2d 692, 696 (S.D.N.Y. 2006) (“Pendency
has the effect of an automatic injunction, which is imposed
without regard to such factors as irreparable harm, likelihood
of success on the merits, and a balancing of the hardships.”).
Our conclusion that the Parents’ complaints fail to state
a claim is based on our review of the final judgment in Ventura
de Paulino. Because the Parents’ complaints are virtually
identical in all material respects, our affirmance of the
dismissal of Ventura de Paulino’s complaint necessarily means
that Navarro Carrillo and Garzon cannot succeed on the merits
of their pendency claim and that the District Court’s order of
preliminary injunction in their favor must be vacated.
39

See 20 U.S.C. § 1415(i)(2)(A) (providing a cause of action
in federal or state court to any party “aggrieved” by a “final”
decision of either an impartial hearing officer, if the state does
not have an appeals process, or the state review officer, if it
does); accord J.S. v. Attica Cent. Sch., 386 F.3d 107, 112 (2d
Cir. 2004).
40

“[E]xhaustion is not necessary if (1) it would be futile to
resort to the IDEA’s due process procedures; (2) an agency has
adopted a policy or pursued a practice of general applicability
that is contrary to the law; or (3) it is improbable that adequate
relief can be obtained by pursuing administrative remedies.”
41

A43
unless an exception applies, the exhaustion of
administrative remedies under the IDEA is a
“jurisdictional prerequisite”42 of the statute and that
a “plaintiff’s failure to exhaust . . . deprives a court of
subject matter jurisdiction” over any IDEA claims.43
Although we have questioned more recently the
supposed jurisdictional nature of the exhaustion
requirement,44 because we are arguably bound by
those earlier statements and because, in all but the
rarest of cases, we “must determine that [we] have
jurisdiction before proceeding to the merits” of a
claim,45 we first consider the City’s argument that
Murphy, 297 F.3d at 199 (citing Mrs. W. v. Tirozzi, 832 F.2d
748, 756 (2d Cir. 1987)).
42

Id.

Polera v. Bd. of Educ. of Newburgh Enlarged City Sch.
Dist., 288 F.3d 478, 483 (2d Cir. 2002).
43

In Coleman v. Newburgh Enlarged City School District,
we noted that our precedent has not been entirely clear on
whether the IDEA’s exhaustion requirement is a jurisdictional
prerequisite or a mandatory claim-processing rule. 503 F.3d
198, 203 (2d Cir. 2007); accord Paese v. Hartford Life Accident
Ins. Co., 449 F.3d 435, 444 n.2 (2d Cir. 2006). Unlike a
jurisdictional prerequisite, the affirmative defense that a party
has failed to satisfy a mandatory claim-processing rule is
subject to the doctrines of waiver and forfeiture. See Coleman,
503 F.3d at 203. Like in Coleman, however, “we are not forced
to decide whether our precedent [in Polera and Murphy], which
labels the IDEA’s exhaustion requirement as a rule affecting
subject matter jurisdiction rather than an ‘inflexible claimprocessing’ rule that may be waived or forfeited, remains good
law . . . because there can be no claim of waiver or forfeiture
here.” Id. at 204.
44

Lance v. Coffman, 549 U.S. 437, 439 (2007); see also
Steel Co. v. Citizens for a Better Env’t, 523 U.S. 83, 94 (1998);
45

A44
dismissal is appropriate because the Parents failed
to exhaust their administrative remedies.
The City contends that the Parents were
required to wait for a ruling by a state review officer
before filing their complaints in federal court. But
that argument ignores the fact that where “an action
alleg[es a] violation of the stay-put provision,” such
action “falls within one, if not more, of the
enumerated exceptions” to the IDEA’s exhaustion
requirement.46 That is clearly the case here. The
Parents’ complaints allege that the City’s failure to
pay for the Students’ services at iBRAIN violates the
stay-put provision of the IDEA.
The City also contends that the Parents cannot
rely on the stay-put provision to circumvent the
IDEA’s exhaustion requirement because the City has
not violated the stay-put provision. That argument
also fails, as it conflates the merits inquiry of
whether the Parents have stated a claim upon which
relief can be granted with the arguable threshold
inquiry of whether the Parents needed to exhaust
their administrative remedies. Because the Parents
allege that the City’s failure to pay for the Students’
but see Ctr. for Reprod. Law and Policy v. Bush, 304 F.3d 183,
195 (2d Cir. 2002) (recognizing a discretionary exception to
Steel Co. on the basis that a court, in very rare circumstances,
“may dispose of the case on the merits without addressing a
novel question of jurisdiction”).
Murphy, 297 F.3d at 199; accord Doe v. E. Lyme Bd. of
Educ., 790 F.3d 440, 455 (2d Cir. 2015). As we explained in
Murphy, “given the time-sensitive nature of the IDEA’s stayput provision,” and the amount of time it would take a plaintiff
to exhaust the administrative process, “an immediate appeal is
necessary to give realistic protection to the claimed right.” 297
F.3d at 199 (citation and quotation marks omitted).
46

A45
services at iBRAIN violates the stay-put provision of
the IDEA, the Parents are not required to satisfy the
IDEA’s exhaustion requirement.
C. The IDEA’s Stay-Put Provision
The IDEA’s stay-put provision provides in
relevant part that “during the pendency of any
[administrative and judicial] proceedings conducted
pursuant to this section, unless the [school district] .
. . and the parents otherwise agree, the child shall
remain in the then-current educational placement of
the child.”47 We have interpreted this provision to
require a school district “to continue funding
whatever educational placement was last agreed
upon for the child until the relevant administrative
and judicial proceedings are complete.”48 To that
effect, although we may not have previously stated
the proposition clearly, the IDEA does not authorize
a school district to recoup payments made for
educational services pursuant to the stay-put
provision (i.e., pendency services).49 As reflected in
47

20 U.S.C. § 1415(j).

48

T.M., 752 F.3d at 171 (citing Mackey, 386 F.3d at 163).

See Mackey, 386 F.3d at 160–61, 165–66 (explaining that
school districts are required to pay for a child’s pendency
placement regardless of who prevails in the IEP dispute and
authorizing an award for pendency services even after parents
lost their IEP dispute for the relevant school year). District
courts in this Circuit also have noted repeatedly that “a school
district has no right under the [IDEA] to recoup pendency
tuition payment from a parent.” N.Y. City Dep’t of Educ. v. S.S.,
No. 09-cv-810 (CM), 2010 WL 983719, at *9 (S.D.N.Y. March
17, 2010); see, e.g., N.Y. City Dep’t of Educ. v. V.S., No. 10-cv05120 (JG)(JO), 2011 WL 3273922, at *9 (E.D.N.Y. July 29,
49

A46
the text of the provision and our cases, Congress’s
policy choice was that a child is entitled to remain in
his or her placement at public expense during the
pendency of an IEP dispute, regardless of the merit
of the child’s IEP challenge or the outcome of the
relevant proceedings.50
Where, as here, the stay-put provision is
invoked, our inquiry generally focuses on identifying
the child’s “then-current educational placement,” as
it is the only educational program the school district
is obligated to pay for during the pendency of an IEP
dispute.51 The term “then-current educational
placement” in the stay-put provision typically refers
to the child’s last agreed-upon educational program
before the parent requested a due process hearing to
challenge the child’s IEP.52 Under the IDEA, an
initial placement is made by the school district upon
the consent of the parent.53 A child’s educational
2011); E. Z.-L. ex rel. R.L. v. N.Y. City Dep’t of Educ., 763 F.
Supp. 2d 584, 599 (S.D.N.Y. 2011); C.G. ex rel. B.G. v. N.Y. City
Dep’t of Educ., 752 F. Supp. 2d 355, 361 (S.D.N.Y. 2010);
Murphy v. Arlington Cent. Sch. Dist. Bd. of Educ., 86 F. Supp.
2d 354, 367 n.9 (S.D.N.Y. 2000).
See Mackey, 386 F.3d at 160–61; see also Susquenita
Sch. Dist. v. Raelee S., 96 F.3d 78, 83 (3d Cir. 1996), cited with
approval in Mackey, 386 F.3d at 161.
50

51

See Mackey, 386 F.3d at 163; Zvi D., 694 F.2d at 906.

See, e.g., T.M., 752 F.3d at 171; Mackey, 386 F.3d at 163;
Zvi D., 694 F.2d at 906.
52

20 U.S.C. § 1415(j) (“[I]f applying for initial admission to
a public school, [the child] shall, with the consent of the
parents, be placed in the public school program until all such
proceedings have been completed.”).
53

A47
placement (or program) may be changed if, for
example, the school district and the parents agree on
what the new placement should be. The placement
can also be changed if an impartial hearing officer or
state review officer finds the parents’ new placement
to be appropriate by adjudicating the IEP dispute in
the parents’ favor, and the school district chooses not
to appeal the decision.54 Accordingly, implicit in the
concept of “educational placement” in the stay-put
provision (i.e., a pendency placement) is the idea
that the parents and the school district must agree
either expressly or as impliedly by law to a child’s
educational program.
When the impartial hearing officers in these
tandem cases concluded that iHOPE was an
appropriate placement for the Students and the City
chose not to appeal the ruling to a state review
officer, the City consented, by operation of law, to
the Students’ private placement at iHOPE. At that
moment, the City assumed the legal responsibility to
pay for iHOPE’s educational services to the Students
as the agreed-upon educational program that must
be provided and funded during the pendency of any
IEP dispute. What is in dispute here, however, is
whether the stay-put provision requires the City to
pay for the educational services being provided to
the Students at the new school, iBRAIN.
The stay-put provision does not guarantee a
child with a disability “the right to remain in the
exact same school with the exact same service
See Mackey, 386 F.3d at 163; see also Bd. of Educ. v.
Schutz, 290 F.3d 476, 484 (2d Cir. 2002) (“[O]nce the parents’
challenge [to a proposed IEP] succeeds . . ., consent to the
private placement is implied by law, and the requirements of §
1415(j) become the responsibility of the school district.”).
54

A48
providers while his administrative and judicial
proceedings are pending. Instead, it guarantees only
the same general level and type of services that the .
. . child was receiving.”55
With this in mind, the Parents first argue that,
because the educational program offered at iBRAIN
is arguably substantially similar to that offered at
iHOPE, the decision of the Parents to move the
Students to iBRAIN did not change the placement
for which the City is required to pay. In the
alternative, the Parents argue that the Students’
operative placement is at iBRAIN, since that is
where the Students were enrolled at the time that
the Parents initiated the administrative proceedings
challenging the Students’ IEPs for the 2018-2019
school year.
The Parents’ arguments focus on identifying the
pendency placement that the Students are entitled
to receive—the inquiry that, as stated above,
typically underlies most pendency disputes. The
parties’ dispute requires us, however, to answer a
different question: Does the fact that the City retains
authority to determine how the Students’ pendency
services are to be provided mean that the Parents
may also exercise that authority?
1. The Parents’ Primary Argument
The Parents’ argument that the Students’ new
enrollment at iBRAIN did not constitute a change in
the Students’ pendency placement is misplaced. In
Concerned Parents v. New York City Board of
Education, we concluded, albeit in a different
T.M., 752 F.3d at 171 (citing Concerned Parents, 629
F.2d at 753, 756).
55

A49
context, that the City’s transfer of children with
disabilities in special education classes at one school
to substantially similar classes at other schools
within the same school district did not result in a
change to the students’ educational placement.56
That conclusion, however, offers no solace to the
Parents’ pendency claims here.
Underlying the Parents’ primary argument is
the assumption that because a school district can
move a child to a new school that offers the same
general level and type of services without violating
the IDEA’s stay-put provision, a parent is likewise
authorized to invoke the stay-put provision to
require the school district to pay for a new school
identified by the parent so long as the new school
offers substantially similar educational services. Not
so.
For the reasons stated below, it is the City, not
the Parents, that is authorized to decide how (and
where) the Students’ pendency services are to be
provided.
a. First Reason: The IDEA’s Text and
Structure
We start by recognizing the well-settled principle
that “[b]y and large, public education in our Nation
is committed to the control of the state and local
authorities.”57 By choosing to accept federal funds
See Concerned Parents, 629 F.2d at 756 (rejecting claim
that there had been a change in the children’s educational
placement that triggered prior notice and hearing
requirements).
56

57

Epperson v. Arkansas, 393 U.S. 97, 104 (1968).

A50
under the IDEA, participating States do not
relinquish their control over public education,
including their authority to determine the
educational programs of students.58 Nor do States
agree to the wholesale transfer of that authority to
the parents of children with disabilities. Rather, by
accepting federal funds, States primarily agree to
establish procedures to ensure that a FAPE is
provided to children with disabilities.59 One of those
“procedural safeguards”60 is the right to pendency
services under the stay-put provision.61
The stay-put provision therefore was enacted as
a procedural safeguard in light of the school district’s
broad authority to determine the educational
program of its students. The provision limits that
authority by, among other things, preventing the
school district from unilaterally modifying a
student’s educational program during the pendency
See Tilton v. Jefferson Cty. Bd. of Educ., 705 F.2d 800,
804 (6th Cir. 1983) (“Congress did not compel, as the price for
federal participation in the education for the handicapped, a
wholesale transfer of authority over the allocation of
educational resources from the duly elected or appointed state
and local boards to the parents of individual handicapped
children.”), cited with approval in Fallis v. Ambach, 710 F.2d
49, 56 (2d Cir. 1983).
58

20 U.S.C. § 1415(a) (“Any State educational agency,
State agency, or local educational agency that receives
assistance under this subchapter shall establish and maintain
procedures in accordance with this section to ensure that
children with disabilities and their parents are guaranteed
procedural safeguards with respect to the provision of a free
appropriate public education by such agencies.”).
59

60

Id. § 1415 (entitled, “Procedural Safeguards”).

61

See id. § 1415(j).

A51
of an IEP dispute. It does not eliminate, however,
the school district’s preexisting and independent
authority to determine how to provide the mostrecently-agreed-upon educational program. As we
have recognized, “[i]t is up to the school district,” not
the parent, “to decide how to provide that
educational program [until the IEP dispute is
resolved], so long as the decision is made in good
faith.”62
If a parent disagrees with a school district’s
decision on how to provide a child’s educational
program, the parent has at least three options under
the IDEA: (1) The parent can argue that the school
district’s decision unilaterally modifies the student’s
pendency placement and the parent could invoke the
stay-put provision to prevent the school district from
doing so; (2) The parent can determine that the
agreed-upon educational program would be better
provided somewhere else and thus seek to persuade
the school district to pay for the program’s new
services on a pendency basis; or (3) The parent can
determine that the program would be better
provided somewhere else, enroll the child in a new
school, and then seek retroactive reimbursement
from the school district after the IEP dispute is
resolved.
That said, what the parent cannot do is
determine that the child’s pendency placement
would be better provided somewhere else, enroll the
child in a new school, and then invoke the stay-put
provision to force the school district to pay for the
new school’s services on a pendency basis. To hold
otherwise would turn the stay-put provision on its
T.M., 752 F.3d at 171 (citing Concerned Parents, 629
F.2d at 756).
62

A52
head, by effectively eliminating the school district’s
authority to determine how pendency services
should be provided.
Here, the Parents’ pendency claims seek to do
exactly that. The Parents and the City had agreed
that the Students’ educational program would be
provided at iHOPE. When apparently dissatisfied
with unspecified changes to iHOPE’s “management”
and “philosophy,” the Parents unilaterally decided
that iBRAIN was a better school for the Students.63
The Parents are certainly entitled to make that
decision for the benefit of their children, but in
claiming that the City must continue to pay for
iBRAIN’s services on a pendency basis, the Parents
effectively “seek a ‘veto’ over school choice rather
than ‘input’—a power the IDEA clearly does not
grant them.”64 Regardless of whether the
educational program that the Students are receiving
at iBRAIN is substantially similar to the one offered
at iHOPE, when the Parents unilaterally enrolled
the Students at iBRAIN for the 2018-2019 school
year, they did so at their own financial risk.65
At oral argument, counsel for the Parents generally
attributed the exodus of students from iHOPE to iBRAIN to
“changes in the management” and “philosophy” of iHOPE.
63

64

T.Y., 584 F.3d at 420.

We do not consider here, much less resolve, any question
presented where the school providing the child’s pendency
services is no longer available and the school district either
refuses or fails to provide pendency services to the child. Those
circumstances are not present here. We note, however, that at
least one of our sister Circuits has acknowledged that, under
certain extraordinary circumstances not presented here, a
parent may seek injunctive relief to modify a student’s
placement pursuant to the equitable authority provided in 20
65

A53
b. Second Reason: Cost of Pendency
Services
As a practical matter, it makes sense that it is
the party generally responsible for paying a
student’s agreed-upon educational program—here,
the City—who determines how the pendency
services are to be provided. That is so for two
reasons: (i) public funding for pendency services can
never be recouped; and (ii) the cost of educational
services in schools can vary dramatically.
i. Recoupment versus
reimbursement
One can imagine circumstances in which a
school district pays on a pendency basis for the
educational services of a private school selected
unilaterally by the parents, after which a court
decides in the school district’s favor, by holding that
the parents’ unilateral transfer modified the child’s
pendency placement, or that the school district’s
proposed IEP would have afforded the child a
FAPE.66 In these circumstances, the school district

U.S.C. § 1415(i)(2)(B)(iii). See Wagner v. Bd. of Educ. of
Montgomery Cty., 335 F.3d 297, 302–03 (4th Cir. 2003)
(involving a situation in which the pendency placement was no
longer available, and the school district had failed to propose
an alternative, equivalent placement).
Cf. S.S., 2010 WL 983719, at *1 (rejecting claim by the
City that it is entitled to be reimbursed for the payments made
“to advance the child[’s] . . . private school tuition during
hearing and appeal process” pursuant to the stay-put provision
in light of the state review officer’s final decision that the IEP
66

A54
would have no recourse under the IDEA to recoup
the sums it expended on the child.67 By contrast, if
the school district were found to have unilaterally
modified the child’s placement, the parent could seek
injunctive relief against the school district for
violating the IDEA.68
ii. Difference in educational costs
Dramatically different costs may be presented
when parents unilaterally choose to enroll their child
in a new school. Indeed, the cost of providing
pendency services in the new school may be
substantially higher than the cost of providing those
services at the previous school.69 Nothing in the

“proposed for the child would have afforded him a” FAPE for
the relevant school year).
See ante, note 49. This did not happen here only because
the District Court in Navarro Carrillo granted the City’s
motion to stay the order granting the application for a
preliminary injunction.
67

Cf. T.M., 752 F.3d at 172 (authorizing limited
reimbursement to parents in light of, among other things, the
fact that the school district refused to provide the child
pendency services in the first instance); Mackey, 386 F.3d at
165–66 (authorizing reimbursement for pendency services even
after parents lost their IEP dispute for the relevant school
year).
68

In these cases, neither the City nor the Parents
presented any evidence in the record about the cost of iBRAIN’s
services and how they compare to the cost of similar services at
iHOPE. At oral argument, however, counsel for the City
informed us, without contradiction, that the cost of attending
iBRAIN was significantly higher, and that the Parents had
69

A55
statutory text or legislative history of the IDEA,
however, “implies a legislative intent to permit” the
parents of children with disabilities “to utilize the
[stay-put provision’s] automatic injunctive procedure
. . . to frustrate the fiscal policies of participating
states.”70
c. Third Reason: Uncertainty of
Litigation
The Parents’ pendency claims seek to upend the
educational status quo that the stay-put provision
was enacted to protect. Under the Parents’ theory,
litigation at the outset of an IEP dispute seems
inevitable. The parties will need to rush to court to
obtain a ruling on an emergency basis on whether
the new school selected by the parent offers a
program that is substantially similar to the program
offered at the prior agreed-upon school. A provision
that guarantees the right of a child to stay put can
hardly justify the uncertainty inherent in a race to
the courthouse.
2. The Parents’ Alternative Argument
The Parents also argue that the City must pay
for iBRAIN’s services on a pendency basis because it
is the Students’ “operative placement” at the time
when the IEP proceedings were initiated. That
argument fails for all of the reasons stated above. A
parent cannot unilaterally transfer his or her child
disavowed the City’s transportation arrangement at iHOPE in
favor of a private transportation service arranged by iBRAIN.
70

Fallis, 710 F.2d at 56 (quoting Tilton, 705 F.2d at 804).

A56
and subsequently initiate an IEP dispute to argue
that the new school’s services must be funded on a
pendency basis. That argument effectively renders
the stay-put provision meaningless by denying any
interest of a school district in resolving how the
student’s agreed-upon educational program must be
provided and funded.
It bears recalling that the term “operative
placement” has its origin in cases where the school
district attempts to move the child to a new school
without the parents’ consent,71 or where there is no
previously implemented IEP so that the current
placement provided by the school district is
considered to be the pendency placement for
purposes of the stay-put provision.72 Neither
circumstance is presented here.
*

*

*

Although the stay-put provision prevents a
school district from modifying a student’s pendency
placement without the parents’ consent, it does not
prohibit the school district from determining how,
and where, a student’s pendency placement should
be provided. The Parents and the City had agreed
that the Students’ pendency placement should be
provided at iHOPE. When the Parents enrolled the
Students at iBRAIN, they did so at their own
financial risk; the Parents cannot determine
unilaterally how the Students’ educational program
Drinker v. Colonial Sch. Dist., 78 F.3d 859, 867 (3d Cir.
1996), cited with approval in Mackey, 386 F.3d at 163.
71

Thomas v. Cincinnati Bd. of Educ., 918 F.2d 618, 625–26
(6th Cir. 1990).
72

A57
is to be provided at the City’s expense. The Parents
having failed to plausibly allege a violation of the
stay-put provision and an entitlement to a pendency
order requiring the City to pay for iBRAIN’s
services, they may obtain retroactive reimbursement
for their expenses at iBRAIN only if they are able to
satisfy the three-factor Burlington-Carter test after
their IEP disputes are resolved. That question, if
ever presented, is one that we leave for another day.
III. CONCLUSION
To summarize, we conclude that:
(1) An action that alleges a violation of the stayput provision falls within one or more of the
exceptions to the exhaustion-of-administrativeremedies requirement of the Individuals with
Disabilities Education Act (“IDEA”).
(2) Because the Parents’ complaints allege that
the City’s failure to pay for the Students’ educational
services at the International Institute for the Brain
(“iBRAIN”) violates the IDEA’s stay-put provision,
the Parents were not required to exhaust their
administrative remedies.
(3) The stay-put provision of the IDEA, which
was enacted to limit a school district’s broad
authority to determine or modify a child’s
educational program without the parent’s consent,
does not eliminate the school district’s authority to
determine how, and where, a student’s agreed-upon
educational program is to be provided at public
expense during the pendency of a parental challenge
to the student’s individualized education program
(“IEP”) dispute.

A58
(4) The fact that the City retains authority to
determine how and where the Students’ mostrecently-agreed-upon educational program is to be
provided during the pendency of the Students’ IEP
disputes does not mean that the Parents may
exercise similar authority. The Parents are not
entitled to receive public funding under the stay-put
provision for a new school on the basis of its
purported substantial similarity to the last agreedupon placement.
(5) Accordingly, regardless of whether iBRAIN
provided the Students’ last agreed-upon educational
program in a manner substantially similar to
iHOPE, when the Parents unilaterally enrolled the
Students at iBRAIN, the Parents did so at their own
financial risk.
For the foregoing reasons, the District Court’s
May 31, 2019 judgment in Ventura de Paulino is
AFFIRMED; the District Court’s June 13, 2019
order granting the application for preliminary
injunction in Navarro Carrillo is VACATED and the
cause in Navarro Carrillo is REMANDED with
instructions to dismiss the complaint for failure to
state a claim upon which relief can be granted.

A59
UNITED STATES COURT OF APPEALS FOR
THE SECOND CIRCUIT
SUMMARY ORDER
At a stated term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley
Square, in the City of New York, on the 2nd day of
October, two thousand twenty.
PRESENT: GUIDO CALABRESI, ROBERT A.
KATZMANN, SUSAN L. CARNEY, Circuit Judges.
______________________________
No. 19-4068-cv
DOROTHY NESKE, individually and as parent and
natural guardian of A.N., and CHRISTOPHER
NESKE, individually and as parent and natural
guardian of A.N.,
Plaintiffs-Appellants,
v.
NEW YORK CITY DEPARTMENT OF
EDUCATION,
Defendant-Appellee.
For Plaintiffs-Appellants: KARL ASHANTI (Peter G.
Albert, on the brief), Brain Injury Rights Group,
Ltd., New York, NY.
For Defendant-Appellee: ERIC LEE, Assistant
Corporation Counsel (Richard Dearing, Scott Shorr,
Assistant Corporation Counsel, on the brief), for
James E. Johnson, Corporation Counsel of the City
of New York, New York, NY.

A60
Appeal from the United States District Court for
the Southern District of New York (Caproni, J.).
UPON DUE CONSIDERATION, IT IS
HEREBY ORDERED, ADJUDGED, AND
DECREED that the orders and judgment of the
district court are AFFIRMED.
Plaintiffs-appellants Dorothy Neske and
Christopher Neske appeal from the orders of the
United States District Court for the Southern
District of New York (Caproni, J.) denying their
application for a preliminary injunction and their
motion for reconsideration and from the judgment of
the district court dismissing their lawsuit. We
assume the parties’ familiarity with the underlying
facts, the procedural history of the case, and the
issues on appeal.
Without the consent of defendant-appellee New
York City Department of Education (“City”), the
Neskes unilaterally transferred their child with a
disability, A.N., from a private school called the
International Academy of Hope (“iHOPE”) to another
private school called the International Institute for
the Brain (“iBRAIN”) for the 2018-2019 school year.
Shortly thereafter, they initiated an administrative
proceeding to challenge the adequacy of A.N.’s
individualized educational program (“IEP”), and
sued the City under the stay-put provision of the
Individuals with Disabilities Education Act
(“IDEA”), 20 U.S.C. § 1415(j), to seek public funding
for the tuition at iBRAIN during the pendency of the
IEP challenge.
We recently confronted an identical set of
material facts and legal issues in Ventura de Paulino
v. New York City Department of Education, 959 F.3d

A61
519 (2d Cir. 2020).1 There, we held that “[a] parent
cannot unilaterally transfer his or her child and
subsequently initiate an IEP dispute to argue that
the new school’s services must be funded on a
pendency basis.” Id. at 536. That conclusion squarely
applies to the instant appeal. Nevertheless, the
Neskes put forth several arguments as to why
Ventura de Paulino is not controlling, all of which we
find meritless.
First, the Neskes implicitly suggest that we, in
Ventura de Paulino, misinterpreted the stay-put
provision by confusing a change in schools for a
change in educational programs; that is, they argue
that moving A.N. to iBRAIN did not constitute a
change in “placement” for purposes of the stay-put
provision. That argument is merely a backdoor
attempt at relitigating the key issue that we decided
in Ventura de Paulino, where we explicitly rejected
the argument advanced by the plaintiffs in that case
that a unilateral change in children’s enrollment
does not constitute a change in the students’
pendency placement. See id. at 533–36.
Second, the Neskes contend that Ventura de
Paulino is meaningfully distinguishable in that the
City was deemed to have chosen a school for the
students at issue for pendency purposes there,
whereas here the City did not make such a choice for
A.N. Not so. In both Ventura de Paulino and this
case, iHOPE became the students’ pendency
placement not at the City’s instigation, but rather by
operation of law after the City chose not to appeal
In fact, the same attorneys represent the plaintiffs in both
appeals, and the briefs filed here for the Neskes are largely
carbon copies of the briefs filed for the plaintiff in Ventura de
Paulino.

1

A62
the rulings of impartial hearing officers holding that
iHOPE was an appropriate placement for these
students. See id. at 532. Just as we deemed the City
to have implicitly chosen iHOPE as the pendency
placement for the students in Ventura de Paulino,
the same applies here.
Third, the Neskes contend that this case falls
under footnote 65 of Ventura de Paulino, where we
reserved decision as to a situation “where the school
providing the child’s pendency services is no longer
available and the school district either refuses or
fails to provide pendency services to the child.” Id. at
534 n.65 (emphasis added). But that situation is no
more present here than it was in Ventura de
Paulino. In both appeals, iHOPE continued to be
available to the students at issue and the City did
not refuse or fail to provide pendency services at
iHOPE;2 rather, the plaintiffs unilaterally moved
their children from their pendency placement to a
new private school. See id. at 527.
We have considered the Neskes’ other arguments
as to why Ventura de Paulino is not controlling and
find them to be without merit. And the Neskes have
In their supplemental letter brief, the Neskes argue that
“because iHOPE drastically changed after the 2017-2018
[school year], with respect to, inter alia, the delivery of related
services and the composition of the student body, staff and
administration, it was unavailable for A.N. to receive the same
educational program he had previously received at iHOPE for
purposes of pendency.” Appellants’ Letter Br., dated Aug. 7,
2020, at 5. However, this factual allegation is not in their
complaint, nor have the Neskes sought leave to amend their
complaint to add it, either in the district court or on appeal. We
accordingly decline to consider whether the Neskes’ appeal
could be distinguished from Ventura de Paulino on that basis.
See Pani v. Empire Blue Cross Blue Shield, 152 F.3d 67, 71 (2d
Cir. 1998).

2

A63
raised no arguments on appeal that were not
advanced by the plaintiffs in Ventura de Paulino and
resolved by this Court. Accordingly, the orders and
judgment of the district court are AFFIRMED.
FOR THE COURT:
/s/ Catherine O’Hagan Wolfe, Clerk

